   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL




HIGHMARK MEDICARE SERVICES, INC.,
  DID NOT CLAIM SOME ALLOWABLE
NONQUALIFIED DEFINED-BENEFIT PLAN
  PENSION COSTS FOR FISCAL YEARS
        2003 THROUGH 2009



     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                          April 2014
                                                        A-07-13-00430
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

   Highmark Medicare Services, Inc., did not claim allowable nonqualified defined-benefit
   plan pension costs of approximately $9,000 for Medicare reimbursement for fiscal years
   2003 through 2009.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their nonqualified defined-benefit
plan (NQDBP) pension costs, which are funded by the annual contributions that these contractors
make to their pension plans. The amount of pension costs that the Centers for Medicare &
Medicaid Services (CMS) reimburses to the contractors is determined by the cost reimbursement
principles contained in the Federal Acquisition Regulation, Cost Accounting Standards (CAS),
and Medicare contracts. Previous Office of Inspector General reviews found that Medicare
contractors did not always comply with Federal requirements when claiming pension costs for
Medicare reimbursement.

The objective of this review was to determine whether the NQDBP pension costs claimed by
Highmark Medicare Services, Inc. (Highmark), for Medicare reimbursement for fiscal years
(FYs) 2003 through 2009 were allowable and correctly claimed.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2003, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.

Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is an NQDBP designed to restore pension accruals that
were not provided through the qualified defined-benefit pension plan as a result of elective




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   i
deferrals of compensation or the statutory limits imposed by the Internal Revenue Code sections
401(a)(17) and 415.

This report will address the NQDBP pension costs claimed by Highmark under the provisions of
its Medicare carrier contracts. We will address the NQDBP pension costs claimed by Highmark
under the provisions of its MAC contract in a separate review.

WHAT WE FOUND

Highmark claimed NQDBP pension costs of $479,656 for Medicare reimbursement for FYs
2003 through 2009; however, we determined that the allowable CAS-based NQDBP pension
costs during this period were $488,491. The difference, $8,835, represented allowable NQDBP
pension costs that Highmark did not claim on its Final Administrative Cost Proposals (FACPs)
for FYs 2003 through 2009. Highmark did not claim these allowable NQDBP pension costs
primarily because it based its claim for Medicare reimbursement on incorrectly calculated CAS
pension costs.

WHAT WE RECOMMEND

We recommend that Highmark revise its FACPs for FYs 2003 through 2009 to claim additional
NQDBP pension costs of $8,835.

AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendation.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

       Why We Did This Review ...................................................................................................... 1

       Objective ................................................................................................................................. 1

       Background ............................................................................................................................. 1
           Highmark Medicare Services, Inc. ................................................................................. 1
           Medicare Reimbursement of Pension Costs ................................................................... 2

       How We Conducted This Review........................................................................................... 2

FINDING ........................................................................................................................................ 2

       Claimed Pension Costs ........................................................................................................... 3

       Allowable Pension Costs Not Claimed ................................................................................... 3

RECOMMENDATION .................................................................................................................. 4

AUDITEE COMMENTS................................................................................................................ 4

APPENDIXES

       A: Audit Scope and Methodology .......................................................................................... 5

       B: Federal Requirements Related to
          Reimbursement of Pension Costs ...................................................................................... 7

       C: Allowable Nonqualified Defined-Benefit Plan Pension Costs for
          Highmark Medicare Services, Inc., for Fiscal Years 2003 Through 2009 ........................ 8

       D: Auditee Comments ........................................................................................................... 16




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their nonqualified defined-benefit
plan (NQDBP) pension costs, which are funded by the annual contributions that these contractors
make to their pension plans. The amount of pension costs that the Centers for Medicare &
Medicaid Services (CMS) reimburses to the contractors is determined by the cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR), Cost Accounting Standards
(CAS), and Medicare contracts. Previous Office of Inspector General reviews found that
Medicare contractors did not always comply with Federal requirements when claiming pension
costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether the NQDBP pension costs claimed by Highmark
Medicare Services, Inc. (Highmark), for Medicare reimbursement for fiscal years (FYs) 2003
through 2009 were allowable and correctly claimed.

BACKGROUND

Highmark Medicare Services, Inc.

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

During the period January 1, 2003, through January 1, 2006, Highmark maintained two Medicare
segments: a Medicare Part A segment and a Medicare Part B segment. On January 1, 2006,
Highmark consolidated the Medicare Parts A and B segments into a single Medicare segment.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal
intermediary and Part B carrier, with those contracts terminating in July 2008 and
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
 Medicare Parts A and B Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and
Pennsylvania, and the District of Columbia.


Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                     1
Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is an NQDBP designed to restore pension accruals that
were not provided through the qualified defined-benefit pension plan as a result of elective
deferrals of compensation or the statutory limits imposed by the Internal Revenue Code sections
401(a)(17) and 415.

This report will address the NQDBP pension costs claimed by Highmark under the provisions of
its Medicare carrier contracts. We will address the NQDBP pension costs claimed by Highmark
under the provisions of its MAC contract in a separate review.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual NQDBP pension costs, which are
funded by contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $479,656 of NQDBP pension costs claimed by Highmark for Medicare
reimbursement on its Final Administrative Cost Proposals (FACPs) for FYs 2003 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                FINDING

Highmark claimed NQDBP pension costs of $479,656 for Medicare reimbursement for FYs
2003 through 2009; however, we determined that the allowable CAS-based NQDBP pension
costs during this period were $488,491. The difference, $8,835, represented allowable NQDBP
pension costs that Highmark did not claim on its FACPs for FYs 2003 through 2009. Highmark




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   2
did not claim these allowable NQDBP pension costs primarily because it based its claim for
Medicare reimbursement on incorrectly calculated CAS pension costs.

CLAIMED PENSION COSTS

Highmark claimed NQDBP pension costs of $479,656 for Medicare reimbursement on its
FACPs for FYs 2003 through 2009. We calculated the allowable NQDBP pension costs based
on separately computed CAS-based pension costs for the Medicare segment and the Other
segment in accordance with the FAR and the CAS. For details on the Federal requirements, see
Appendix B.

ALLOWABLE PENSION COSTS NOT CLAIMED

We determined that the allowable CAS-based NQDBP pension costs for FYs 2003 through 2009
were $488,491. Thus, Highmark did not claim $8,835 of allowable NQDBP pension costs on its
FACPs for FYs 2003 through 2009. This underclaim occurred primarily because Highmark
based its claim for Medicare reimbursement on incorrectly calculated CAS pension costs.

The table below shows the differences between the allowable CAS-based NQDBP pension costs
and the pension costs that Highmark claimed on its FACPs and that were reflected in its
accounting documents. Appendix C contains additional details on allowable NQDBP pension
costs.

    Table: Comparison of Allowable NQDBP Pension Costs and Claimed Pension Costs


                                   Medicare NQDBP Pension Costs
                                    Allowable         Claimed by
                  Fiscal Year       Per Audit         Highmark              Difference
                     2003              $42,036              $49,619             ($7,583)
                     2004               41,931               66,024             (24,093)
                     2005              121,431              131,058              (9,627)
                     2006               67,613               91,457             (23,844)
                     2007               86,493               43,531               42,962
                     2008              117,355               87,245               30,110
                     2009               11,632               10,722                  910
                     Total            $488,491             $479,656             ($8,835)

Because Highmark did not calculate its NQDBP pension costs in accordance with Federal
regulations and the Medicare contract’s requirements, Highmark did not claim $8,835 of
allowable NQDBP pension costs during the period of FYs 2003 through 2009.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   3
                                        RECOMMENDATION

We recommend that Highmark revise its FACPs for FYs 2003 through 2009 to claim additional
NQDBP pension costs of $8,835.

                                       AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendation.
Specifically, Highmark agreed that there were allowable costs of $8,835 not claimed on its
FACPs for FYs 2003 through 2009.

Highmark’s comments are included in their entirety as Appendix D.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $479,656 of NQDBP pension costs that Highmark claimed for Medicare
reimbursement on its FACPs for FYs 2003 through 2009.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed the internal controls related to the NQDBP pension costs claimed for
Medicare reimbursement to ensure that these costs were allocable in accordance with the CAS
and allowable in accordance with the FAR.

We performed our fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to this
        audit;

    •   reviewed information provided by Highmark to identify the amount of NQDBP pension
        costs claimed for Medicare reimbursement for FYs 2003 through 2009;

    •   used information that Highmark’s actuarial consulting firm provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined Highmark’s accounting records, pension plan documents, and annual actuarial
        valuation reports;

    •   determined the extent to which Highmark funded CAS-based NQDBP pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable NQDBP pension costs
        based on the CAS (the calculations were based on separately computed CAS-based
        NQDBP pension costs for the Medicare segment and the Other segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during these audits:

    •   Highmark Medicare Services, Inc., Overstated Its Nonqualified Defined-Benefit Plan
        Medicare Segment Pension Assets and Overstated the Medicare Segment Excess Pension
        Liabilities as of January 1, 2012 (A-07-13-00429) and


Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   5
    •   Highmark Medicare Services, Inc., Understated Its Allocable Nonqualified Defined-
        Benefit Plan Pension Costs for Calendar Years 2008 Through 2011 (A-07-13-00431).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   6
                APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
                      REIMBURSEMENT OF PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
contractors fund the pension costs assigned to contract periods by making contributions to the
pension plan.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 412.50(c)(3)), state that the cost of an NQDBP shall be assigned to
cost accounting periods in the same manner as qualified plans under the following conditions:

    •   the contractor, in disclosing or establishing cost accounting practices, elects to have a
        plan so accounted for;

    •   the plan is funded through the use of a funding agency; and

    •   the right to a pension benefit is nonforfeitable and is communicated to the participants.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)   7
                                                APPENDIX C: ALLOWABLE NONQUALIFIED DEFINED-BENEFIT PLAN PENSION COSTS FOR

                                                    HIGHMARK MEDICARE SERVICES, INC., FOR FISCAL YEARS 2003 THROUGH 2009


                                                                                           Total         Other        Medicare Part A   Medicare Part B
            Date                               Description                                Company       Segment          Segment           Segment        Total Medicare

     January 1, 2002        Allocable Pension Costs                                1/                   $3,023,528                $0                $0

            2003            Contributions                                          2/     $5,124,928    $5,124,928                $0                $0
                            Discount for Interest                                  3/      ($137,794)    ($137,794)               $0                $0
     January 1, 2003        Present Value Contributions                            4/     $4,987,134    $4,987,134                $0                $0
                            Prepayment Credit Applied                              5/     $3,098,761    $3,098,761                $0                $0
                            Present Value of Funding                               6/     $8,085,895    $8,085,895                $0                $0

     January 1, 2003        CAS Funding Target                                     7/     $4,783,875    $4,783,875                 $0                $0
                            Percentage Funded                                      8/                      100.00%              0.00%             0.00%
                            Funded Pension Cost                                    9/                   $4,783,875                 $0                $0
                            Allowable Interest                                    10/                      $46,560                 $0                $0
                            Allocable Pension Cost                                                      $4,830,435                 $0                $0
            2003            FY Allocable Pension Costs                            11/                   $4,378,708                 $0                $0
                            Medicare Part A LOB* Percentage                       12/                        0.33%             99.50%         n/a
                            Medicare Part B LOB* Percentage                       13/                        0.63%          n/a                 100.00%

            2003            Medicare Part A Allowable FY Pension Cost             14/                     $14,450                 $0                             $14,450
            2003            Medicare Part B Allowable FY Pension Cost             15/                     $27,586                                   $0           $27,586
            2003            Total Allowable FY Penson Cost                        16/                     $42,036                 $0                $0           $42,036




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                          8
                                                                                           Total         Other        Medicare Part A   Medicare Part B
            Date                               Description                                Company       Segment          Segment           Segment          Total Medicare

            2004            Contributions                                                 $4,028,739    $4,028,739                $0                  $0
                            Discount for Interest                                          ($107,584)    ($107,584)               $0                  $0
     January 1, 2004        Present Value Contributions                                   $3,921,155    $3,921,155                $0                  $0
                            Prepayment Credit Applied                                     $3,566,182    $3,566,182                $0                  $0
                            Present Value of Funding                                      $7,487,337    $7,487,337                $0                  $0

     January 1, 2004        CAS Funding Target                                            $3,710,497    $3,710,497                 $0                  $0
                            Percentage Funded                                                              100.00%              0.00%               0.00%
                            Funded Pension Cost                                                         $3,710,497                 $0                  $0
                            Allowable Interest                                                              $3,960                 $0                  $0
                            Allocable Pension Cost                                                      $3,714,457                 $0                  $0
            2004            FY Allocable Pension Costs                                                  $3,993,452                 $0                  $0
                            Medicare Part A LOB* Percentage                                                  0.37%            100.00%         n/a
                            Medicare Part B LOB* Percentage                                                  0.68%          n/a                 100.00%

            2004            Medicare Part A Allowable FY Pension Cost
                                                                                                          $14,776                 $0          n/a                  $14,776
            2004            Medicare Part B Allowable FY Pension Cost
                                                                                                          $27,155           n/a                       $0           $27,155
            2004            Total Allowable FY Pension Cost                                               $41,931                 $0                  $0           $41,931




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                            9
                                                                                           Total         Other        Medicare
            Date                               Description                                Company       Segment       Segment        Gateway Segment    Total Medicare

            2005            Contributions                                         17/     $5,088,303    $5,056,560        $15,630            $16,113
                            Discount for Interest                                          ($134,950)    ($134,108)         ($415)             ($427)
     January 1, 2005        Present Value Contributions                                   $4,953,353    $4,922,452        $15,215            $15,686
                            Prepayment Credit Applied                                     $4,078,987    $3,882,892        $96,558            $99,537
                            Present Value of Funding                                      $9,032,340    $8,805,344       $111,773           $115,223

     January 1, 2005        CAS Funding Target                                            $4,721,760    $4,494,764       $111,773           $115,223
                            Percentage Funded                                                              100.00%        100.00%            100.00%
                            Funded Pension Cost                                                         $4,494,764       $111,773           $115,223
                            Allowable Interest                                                             $16,670           $415               $427
                            Allocable Pension Cost                                                      $4,511,434       $112,188           $115,650
            2005            FY Allocable Pension Costs                            18/                   $4,312,190        $84,141          n/a
                            Medicare Part A LOB* Percentage                                                  0.32%         39.30%          n/a
                            Medicare Part B LOB* Percentage                                                  0.56%         59.92%          n/a

            2005            Medicare Part A Allowable FY Pension Cost
                                                                                                          $13,799         $33,067          n/a                 $46,866
            2005            Medicare Part B Allowable FY Pension Cost
                                                                                                          $24,148         $50,417          n/a                 $74,565
            2005            Total Allowable FY Pension Cost                                               $37,947         $83,484          n/a                $121,431




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                        10
                                                                                           Total         Other         Medicare        Gateway
            Date                               Description                                Company       Segment        Segment         Segment        Total Medicare

            2006            Contributions                                                 $6,045,299     $6,027,241               $0       $18,058
                            Discount for Interest                                          ($159,226)     ($158,750)              $0         ($476)
     January 1, 2006        Present Value Contributions                                   $5,886,073     $5,868,491               $0       $17,582
                            Prepayment Credit Applied                                     $4,655,426     $4,569,519               $0       $85,907
                            Present Value of Funding                                     $10,541,499    $10,438,010               $0      $103,489

     January 1, 2006        CAS Funding Target                                            $5,608,239     $5,504,750             $0        $103,489
                            Percentage Funded                                                               100.00%          0.00%         100.00%
                            Funded Pension Cost                                                          $5,504,750             $0        $103,489
                            Allowable Interest                                                              $25,299             $0            $476
                            Allocable Pension Cost                                                       $5,530,049             $0        $103,965
            2006            FY Allocable Pension Costs                                                   $5,275,395        $28,047       n/a
                            Medicare Part A LOB* Percentage                                                   0.31%         40.77%       n/a
                            Medicare Part B LOB* Percentage                                                   0.44%         59.23%       n/a

            2006            Medicare Part A Allowable FY Pension Cost
                                                                                                           $16,354         $11,435       n/a                 $27,789
            2006            Medicare Part B Allowable FY Pension Cost
                                                                                                           $23,212         $16,612       n/a                 $39,824
            2006            Total Allowable FY Pension Cost                                                $39,566         $28,047       n/a                 $67,613




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                      11
                                                                                           Total         Other         Medicare       Gateway
            Date                               Description                                Company       Segment        Segment        Segment        Total Medicare

            2007            Contributions                                                 $6,239,907     $6,226,144         $5,478         $8,285
                            Discount for Interest                                          ($164,353)     ($163,991)         ($144)         ($218)
     January 1, 2007        Present Value Contributions                                   $6,075,554     $6,062,153         $5,334         $8,067
                            Prepayment Credit Applied                                     $5,327,920     $5,170,061        $62,822        $95,037
                            Present Value of Funding                                     $11,403,474    $11,232,214        $68,156       $103,104

     January 1, 2007        CAS Funding Target                                            $5,780,181     $5,608,921        $68,156       $103,104
                            Percentage Funded                                                               100.00%        100.00%        100.00%
                            Funded Pension Cost                                                          $5,608,921        $68,156       $103,104
                            Allowable Interest                                                              $11,872           $144           $218
                            Allocable Pension Cost                                                       $5,620,793        $68,300       $103,322
            2007            FY Allocable Pension Costs                                                   $5,598,107        $51,225      n/a
                            Medicare Part A LOB* Percentage                                                   0.27%         43.16%      n/a
                            Medicare Part B LOB* Percentage                                                   0.36%         56.84%      n/a

            2007            Medicare Part A Allowable FY Pension Cost
                                                                                                           $15,115         $22,109      n/a                 $37,224
            2007            Medicare Part B Allowable FY Pension Cost
                                                                                                           $20,153         $29,116      n/a                 $49,269
            2007            Total Allowable FY Pension Cost                                                $35,268         $51,225      n/a                 $86,493




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                     12
                                                                                           Total         Other         Medicare         Gateway
            Date                               Description                                Company       Segment        Segment          Segment          Total Medicare

            2008            Contributions                                                 $7,709,587     $7,657,934        $22,102           $29,551
                            Discount for Interest                                          ($206,826)     ($205,440)         ($593)            ($793)
     January 1, 2008        Present Value Contributions                                   $7,502,761     $7,452,494        $21,509           $28,758
                            Prepayment Credit Applied                                     $6,073,156     $5,803,136       $115,541          $154,479
                            Present Value of Funding                                     $13,575,917    $13,255,630       $137,050          $183,237

     January 1, 2008        CAS Funding Target                                            $7,203,749     $6,883,462       $137,050          $183,237
                            Percentage Funded                                                               100.00%        100.00%           100.00%
                            Funded Pension Cost                                                          $6,883,462       $137,050          $183,237
                            Allowable Interest                                                              $29,781           $593              $793
                            Allocable Pension Cost                                                       $6,913,243       $137,643          $184,030
            2008            FY Allocable Pension Costs                                                   $6,590,131       $120,307         n/a
                            Medicare Part A LOB* Percentage                                                   0.24%         26.10%         n/a
                            Medicare Part B LOB* Percentage                                                   0.27%         43.51%         n/a

            2008            Medicare Part A Allowable FY Pension Cost
                                                                                                           $15,816         $31,400         n/a                    $47,216
            2008            Medicare Part B Allowable FY Pension Cost
                                                                                                           $17,793         $52,346         n/a                   $70,139
            2008            Total Allowable FY Pension Cost                                                $33,609         $83,746         n/a                  $117,355


                                                                                           Total         Other         Medicare         Gateway
            Date                               Description                                Company       Segment        Segment          Segment          Total Medicare

            2009            FY Allocable Pension Costs                            19/                    $1,728,311        $34,411         n/a
                            Medicare LOB* Percentage                              20/                         0.19%         24.26%         n/a

            2009            Medicare Part B Allowable FY Pension Cost
                                                                                                             $3,284         $8,348         n/a                    $11,632

    * Line of Business.

ENDNOTES

 1/ The allocable NQDBP pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the 2002 calendar year (CY) allocable pension cost from our prior Highmark 

    NQDBP review (A-07-06-00202), issued January 20, 2006.


 2/ We obtained Total Company contribution amounts and dates of deposit from Highmark’s actuarial valuation reports. The contributions included deposits made during the CY and accrued contributions deposited
    after the end of the CY but within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension segmentation review (A-07-13-00429). The
    amounts shown for the Other segment represent the difference between the Total Company, the Medicare segments, and the Gateway segment. The Gateway segment does not perform Medicare operations.



Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                                                               13
 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to their beginning-of-the-year value. For purposes of this
    Appendix, we computed the interest as the difference between the present value of contributions (at the CAS valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY. For purposes of this Appendix, we deemed deposits made after the end of the
    CY to have been made on the final day of the CY, consistent with the method established by the Employee Retirement Income Security Act prior to the implementation of the Pension Protection Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year CAS funding target.
    A prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to cover the CAS funding target measured at the first day of the
    CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
    accordance with CAS 412.50(c)(1), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions bears to the present value of contributions. However, we
    limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit, were
    funded in 4 equal installments deposited within 30 days after the end of the quarter.

11/ We converted the allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

12/ We calculated the Medicare Part A line of business (LOB) percentages based on information provided by Highmark.

13/ We calculated the Medicare Part B LOB percentages based on information provided by Highmark.

14/ We computed the Medicare Part A allowable pension cost as an FY pension cost multiplied by the Medicare Part A LOB percentage. In accordance with CAS 412 and 413, the total Medicare Part A allowable
    pension costs charged to the Medicare contract consisted of the Highmark Medicare segment’s direct pension costs plus Other segment pension costs attributable to indirect Highmark Medicare operations.

15/ We computed the Medicare Part B allowable pension cost as an FY pension cost multiplied by the Medicare Part B LOB percentage. In accordance with CAS 412 and 413, the total Medicare Part B allowable
    pension costs charged to the Medicare contract consisted of the Highmark Medicare segment’s direct pension costs plus Other segment pension costs attributable to indirect Highmark Medicare operations.

16/ We computed the total allowable FY Medicare pension cost as the sum of the Medicare Part A pension cost and the Medicare Part B pension cost.

17/ The Gateway Pension Plan merged with the Highmark Pension Plan effective December 31, 2004. Therefore, the amounts shown for the Other segment represent the difference between the Total Company, the
    Medicare segments, and the Gateway segment. The Gateway segment does not perform Medicare operations.

18/ Highmark combined its Medicare Part A and Part B segments on January 1, 2006. Therefore, we calculated the FY Medicare segment pension costs as 1/4 of the prior year’s Medicare Part A and Part B costs plus
    3/4 of the combined segment’s current year’s costs.



Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                                                                          14
19/ The 2009 FY allocable pension cost is calculated for the period October 2008 through December 2008. Highmark’s Title XVIII contract transitioned to the MAC contract in December 2008.

20/ The Medicare Part B LOB percentage is calculated for the period October 2008 through December 2008. The Medicare Part B business transitioned to the Jurisdiction 12 MAC contract effective December 2008.
    The MAC allocable pension costs are calculated in a separate allocable pension cost report (A-07-13-00431).




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                                                                                           15
                               APPENDIX D: AUDITEE COMMENTS




                                                         <fTiGHMARK.


            Apriln, 2014


            Mr. Patrick Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            Department of Health and Human Services
            6ot East 12'h Street, Room 0429
            Kansas City, MO 64106

            Subject: OIG Report Number A-07-13-00430

            Dear Mr. Cogley:

            Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on the U.S.
            Department of Health and Human Services, Office of Inspector General ("OIG"), draft report
            entitled Highmark Medicare Services, Inc., Did Not Claim Some Allowable Nonqualified Defined­
            Benefit Plan Pension Costs for Fiscal Years 2003 Through 2009.

            After careful review of both the draft report and additional detailed supplemental information,
            Highmark agrees that there were allowable costs of $8,835 not claimed on the FACP reports for
            fiscal years 2003 through 2009.

            While we concur with the overall recommendations in this report, Highmark's detailed
            examination of the individual data elements identified various minor transpositions, CAS
            application and other differences that Highmark does not contest because the net impact of these
            items is immaterial to the overall pension and nonqualified pension audit findings.

            Thank you again for affording Highmark the opportunity to comment on this report. Please do not
            hesitate to contact me if you have any questions regarding this response.

            Sincerely,



            Janine K. Colinear
            Chief Accounting Officer




                                                                         Cnrpar,llt.> Ofilu·s:

                                                                         C.1lllJll-iill l',\ 1/ \I(N
                                       1-illh _.\\t'I1UC.' l'l<lll' • I LO I illh t\vt'lllll' • l'ul..:hur~h 1'. \ I }.! ,!.! :01J1l
                                                                        \\ \\'\\ .IHJ.,:hm,l/1,..~ o !ll




Highmark Medicare Services, Inc., Nonqualified Defined-Benefit Plan Costs Claimed (A-07-13-00430)                                      16
